Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of the Medicaid Drug Rebate Program in Illinois
July 28, 2008 | Audit A-05-08-00011
Executive Summary
The Illinois Department of Healthcare and Family Services (the State agency) did not collect rebates on single source drugs administered by physicians or establish controls over and accountability for their collection.  The State agency planned to bill for rebates totaling $308,000 for the first quarter of 2006 in June 2008 for and for subsequent quarters thereafter.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS